IN THE
SUPREME COURT OF THE UNITED STATES

JEFFREY R. MARTINSON,
Petitioner
vs.

STATE OF ARIZONA
Respondent

PROOF OF SERVICE

I, Brent E. Graham, do swear or declare that on this date, October 1, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. The names and addresses
of those served are as follows:

Joseph Hinrichson,

Michael A. Minicozzi,

Maricopa County Arizona, Deputy County Attorneys,
225 West Madison

Phoenix, Arizona 85003

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2021.

i - ei
Brent E. Graham
Counsel of Record
